<html>
<title> - HEARING ON: H.R. 3535, TO AMEND THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT TO ELIMINATE THE WASTEFUL AND UNSPORTSMANLIKE PRACTICE OF SHARK FINNING</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





   H.R. 3535, TO AMEND THE MAGNUSON-STEVENS FISHERY CONSERVATION AND 
 MANAGEMENT ACT TO ELIMINATE THE WASTEFUL AND UNSPORTSMANLIKE PRACTICE 
                            OF SHARK FINNING

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                     APRIL 13, 2000, WASHINGTON, DC

                               __________

                           Serial No. 106-90

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-602                     WASHINGTON : 2000


                                 ______


                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH-HAGE, Idaho          CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA MC CHRISTENSEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  JAY INSLEE, Washington
MARK E. SOUDER, Indiana              GRACE F. NAPOLITANO, California
GREG WALDEN, Oregon                  TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
MIKE SIMPSON, Idaho                  RUSH D. HOLT, New Jersey
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       ENI F.H. FALEOMAVAEGA, American 
JAMES V. HANSEN, Utah                    Samoa
WAYNE T. GILCHREST, Maryland         BRUCE F. VENTO, Minnesota
RICHARD W. POMBO, California         PETER A. DeFAZIO, Oregon
WALTER B. JONES, Jr., North          NEIL ABERCROMBIE, Hawaii
    Carolina                         SOLOMON P. ORTIZ, Texas
MARK E. SOUDER, Indiana              FRANK PALLONE, Jr., New Jersey
ROBIN HAYES, North Carolina          CARLOS A. ROMERO-BARCELO, Puerto 
MIKE SIMPSON, Idaho                      Rico
                                     ADAM SMITH, Washington
                    Harry Burroughs, Staff Director
                     Dave Whaley, Legislative Staff
               Jean Flemma, Democratic Legislative Staff


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held April 13, 2000......................................     1

Statement of Members:
    Cunningham, Hon. Randy ``Duke'', a Representative in Congress 
      from the State of California...............................     6
        Prepared statement of....................................     9
    Faleomavaega, Hon. Ini F., a Representative in Congress from 
      American Samoa, prepared statement of......................    12
    Pallone, Hon. Frank, a Representative in Congress from the 
      State of New Jersey, prepared statement of.................     4
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey, prepared statement of.......................     2

Statement of Witnesses:
    Aila, William, Harbor Master, Wai'anae Small Boat Harbor.....    53
        Prepared statement of....................................    55
    Cook, James, Chairman, Western Pacific Regional Fisheries 
      Management Council.........................................    21
        Prepared statement of....................................    24
    O'Regan, Frederick M., President, International Fund for 
      Animal Welfare.............................................    43
        Prepared statement of....................................    46
    Rosenberg, Andrew A., Deputy Assistant Administrator for 
      Fisheries, National Marine Fisheries Service, National 
      Oceanic and Atmospheric Administration, U.S. Department of 
      Commerce...................................................    14
        Prepared statement of....................................    17


 
     HEARING ON: H.R. 3535, TO AMEND THE MAGNUSON-STEVENS FISHERY 
     CONSERVATION AND MANAGEMENT ACT TO ELIMINATE THE WASTEFUL AND 
               UNSPORTSMANLIKE PRACTICE OF SHARK FINNING

                              ----------                                



                        THURSDAY, APRIL 13, 2000

                   House of Representatives
  Subcommittee on Fisheries Conservation, Wildlife 
                                        and Oceans,
                                    Committee on Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:05 a.m. in 
room 1334, Longworth House Office Building, Hon. Jim Saxton 
(chairman of the subcommittee) presiding.
    Mr. Saxton. The subcommittee will come to order. Today, we 
are discussing H.R. 3535 to amend the Magnuson-Stevens Fishery 
Conservation and Management Act to eliminate the wasteful and 
unsportsmanlike practice of shark finning.
    I would like to welcome our witnesses and thank those of 
you who have travelled all the way from Hawaii for this hearing 
and would also like to thank our witnesses who will be joining 
us via videoteleconference from Honolulu. As members and 
witnesses are aware, this subcommittee held a hearing on this 
same subject last October.
    While that hearing focussed on H.Con.Res. 189, which was a 
non-binding sense-of-Congress resolution, the issues remain 
unchanged. As an original co-sponsor of H.R. 3535, the Shark-
Finning Prohibition Act, I continue to believe that the 
practice of shark finning is wrong. In addition, the practice 
of shark finning is inconsistent with the rules governing the 
harvest of sharks on the East Coast, in the Gulf of Mexico and 
in the Caribbean.
    I believe that Congress has the authority and the duty to 
take action to prohibit this activity. I am pleased with the 
steps that the Western Pacific Fishery Management Council has 
taken since we last met on this issue. However, I believe the 
Council did not go far enough.
    This legislation is necessary since the practice of shark 
finning continues today despite the Council's actions. I 
appreciate the interest that has been shown in this issue and I 
look forward to hearing the testimony from our witnesses today.
    [The prepared statement of Mr. Saxton follows:]

    [GRAPHIC] [TIFF OMITTED] T7602.001
    
    Mr. Saxton. Mr. Pallone, do you have an opening statement?
    Mr. Pallone. Thank you, Mr. Chairman, for holding this 
hearing on H.R. 3535 to eliminate the wasteful and 
unsportsmanlike practice of shark finning and to reduce the 
high mortality levels associated with shark finning in U.S. 
waters. I want to commend the bill's sponsor, Mr. Cunningham, 
for bringing this matter before the subcommittee and I am also 
pleased to say that I am a co-sponsor of the legislation and I 
think it is long overdue.
    The practice of shark finning, the destructive practice of 
slicing off a shark fin and discarding its carcass back into 
the ocean has been banned since 1993 in all Federal waters 
except the Western and Central Pacific. Today, a diverse group 
of commercial and recreational fishers, conservationists, 
Democrats and Republicans have joined together in support of 
the bill finding this practice as indefensible waste of a 
valuable natural resource, not to mention the inhumane practice 
of sentencing a living creature to a slow and painful death.
    The fins of sharks are the primary ingredient in shark-fin 
soup. The increasing popularity of shark-fin soup in Asia has 
increased the practice of shark finning in the Western and 
Central Pacific waters. In fact, in 1991, the percentage of 
sharks retained by the longline fisheries for finning was 
approximately 3 percent but, by 1998, that percentage had grown 
to an astounding 60 percent.
    As a result, more than 60,000 sharks were caught and killed 
in the region, 98.7 percent of which are harvested only for 
their fins. The National Marine Fisheries Service and the 
National Oceanographic and Atmospheric Administration have both 
directed the Western Pacific Fishery Management Council to stop 
shark finning immediately but, nevertheless, as the Chairman 
mentioned, the Council has--well, I should say I am going a 
little further, Mr. Chairman, by saying that I think they have 
abdicated their responsibility to protect and promote the long-
term health of this marine resource and disregarded the policy 
directives.
    Furthermore, the Council's persistent support of finning 
stands in direct contradiction to U.S. domestic and 
international shark-management policies.
    Finally, the unique biological characteristics of sharks, 
slow growth rate, late sexual maturity and the production of 
few young make them particularly vulnerable to overfishing and 
slow to recovery from depletion. This vulnerability coupled 
with the unequivocal history of unmanaged shark fisheries 
warrants expeditious passage of Mr. Cunningham's bill as well 
as the particularly cautious management approach.
    I support an end to this wasteful destructive and 
biologically risky practice and I am pleased that the chairman 
and the subcommittee are examining this problem. I hope we can 
work with my colleague to pass this legislation and condemn the 
barbaric practice of shark finning.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

    [GRAPHIC] [TIFF OMITTED] T7602.002
    
    [GRAPHIC] [TIFF OMITTED] T7602.003
    
    Mr. Saxton. Thank you, Mr. Pallone. I ask unanimous consent 
that all other subcommittee members, including the ranking 
members, be permitted to include their opening statement in the 
record and, without objection, that will happen.
    Let me just introduce our first witness and the person who 
has worked so hard on this issue, Congressman Duke Cunningham, 
my friend from San Diego. It would not be an overstatement to 
say that Mr. Cunningham has bulldogged this issue for a long 
time and that we would not be here having this discussion 
without him.
    We want to thank you for that, Duke and we look forward to 
your testimony. It is always good to hear from somebody who 
believes deeply in an issue and we know you believe deeply in 
this one. So we are anxious to hear your testimony. You may 
proceed at your convenience.

      STATEMENT OF THE HON. RANDY ``DUKE'' CUNNINGHAM, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cunningham. Thank you, Mr. Chairman, Mr. Pombo, Mr. 
Pallone. I would like to thank the committee not only for 
hearing this testimony, allowing this hearing, and also for the 
committee's support on this particular issue.
    I would ask the committee to go back and review last year. 
I know you would rather have Brooke Burns from Bay Watch than 
Duke Cunningham's testimony, but she is with child and could 
not make the trip this year. But she gave one of the most 
professional testimonies that I have ever heard last year. If 
you will go back and review her testimony, I think it will give 
insight to anyone that is opposed to this particular 
legislation.
    Mr. Chairman, I am a scuba diver. I don't necessarily like 
sharks. Night before last, I watched a special about great 
whites that were going up and hitting surfboards and they were 
doing research. They are dangerous. But, like all animals, 
whether it is a lion or a tiger or a leopard, God put animals 
on this earth and we need the conservation of those species.
    That is why I am here today. I first introduced the Shark 
Finning Prohibition Act with the idea of following through with 
this exact type of legislation. Mr. Chairman, last year, with 
your support, the House passed the Concurrent Resolution 189 
which expressed the sense of the House that shark finning is a 
wasteful, unsportsmanlike, destructive practice that should be 
banned.
    As legislation before this committee today will accomplish 
that goal and, again, I want to thank the members of this 
committee.
    It is my intent not only to stop this wasteful practice in 
U.S. waters but down the line across the world. I think that 
when we have waste of a species like this, there should be an 
international outrage.
    Shark finning is the distasteful practice of removing a 
shark's fin and discarding the carcass into the sea. As an avid 
sportsman, I love to hunt and fish but I believe in 
conservation based on good science to preserve the species but 
yet to harvest older animals for the purposes of food.
    In my own particular case, I don't hunt anything that I 
don't eat. I know other people may do it for sport, but I do 
not. I find this practice of shark finning horrific and 
wasteful. I have worked with this committee on a tuna-dolphin 
bill and saved turtles and bicatch in species. The elephants in 
Africa; I think it is distasteful just to kill an elephant for 
the ivory or a rhino just for its horn and leave the carcass 
there.
    For sharks, in U.S. waters, maybe we can stop that. But, 
again, I think that when we have sound conservation, if we have 
a rogue elephant, if we have one that is destructive or 
dangerous, then there should be rules to guide that. But just 
the wanton destruction of a species or a particular part of its 
anatomy I think is wrong.
    At the hearing last October, this committee was told that 
shark finning is occurring in U.S. Pacific and increasing at an 
alarming rate. Unfortunately, this practice is not only 
continuing, it is accelerating. According to the National 
Marine Fishery Service, a scientific organization, in the 
Central and Western Pacific fisheries, the number of sharks 
finned in 1992 was only about 2,289 blue sharks.
    Last year, fishermen in the Central and Western Pacific 
caught a total of 78,091 blue sharks of which 58,268 were 
brought on board, 57,286, which were finned, and only a 
shameful 982 were retained.
    If you asked me back in the 1700's to stop buffalo hunting 
just for the removal of the hide, I would support that. If you 
asked me today to stop the wanton killing of seal pups for a 
barbaric practice of just taking the hide of a seal pup, I 
think that is wrong.
    Whether it is a rhino or an elephant or whatever, we must 
stand forth, I think, not only as a country but as a nation and 
internationally to stop such practices. Between 1992 and 1999, 
the number of blue sharks finned in the Pacific rose by more 
than 2,500 percent. In 1999, the number of sharks retained 
whole was less than 2 percent.
    To stop this practice, the National Marine Fisheries has 
acted to ban shark finning in all Federal waters of U.S. 
Atlantic, Gulf of Mexico and Caribbean. However, the service 
has been unable to convince the Western Pacific Region Fishery 
Management Council, WestPac, to enact a similar ban. This 
leaves the sharks in the Central and Western Pacific Oceans as 
the only ones not protected from this terrible practice.
    NMFS has also written to the WestPac stating finning is 
wasteful and should be stopped. However, when given the 
opportunity to act responsibly and stop finning, WestPac has 
repeatedly balked and taken no action. Even after the House 
acted last fall by passing the resolution against shark 
finning, the WestPac Council has not stopped the practice of 
finning and thumbed their nose at Congress.
    Mr. Chairman, this legislation before the committee today 
will establish one scientifically and environmentally sound and 
responsible standard for all of American fisheries.
    This legislation sends a clear message that Congress does 
not tolerate the practice of shark finning and resulting waste 
in our national waters. Over the last 5 years, the United 
States has emerged as a global leader in shark-fishery 
management. The Secretary of State is a strong advocate for the 
coordinated management of sharks and the elimination of shark 
finning in all the world's waters.
    Yet, even as our nation has been an international advocate 
for banning shark finning, our inability to address finning in 
our own waters threatens to undermine our legitimate leadership 
role.
    Mr. Chairman, in summation, the Shark Finning Prohibition 
Act has broad bipartisan support, Republicans, Democrats and 
Independents. It is strongly supported by Ocean Wildlife 
Campaign, a coalition that includes the Center for Marine 
Conservation, National Autobahn Society, National Coalition of 
Marine Conservation, National Resources Defense Council, 
Wildlife Conservation Society and the World Wildlife Fund.
    In addition, it is supported by the State of Hawaii Office 
of Hawaiian Affairs, the American Sports Fishing Association 
and Recreational Fishing Alliance, the Sporting Association of 
California, the Costeau Society, the Center for Marine 
Conservation and Western Pacific organizations.
    Mr. Chairman, I want to close by quoting The Honorable 
Benjamin Cayetano, Governor of the State of Hawaii, who has 
written that, ``We should support an end to this wasteful, 
destructive and biologically risky practice.''
    Mr. Chairman, I ask that you and the committee pass this 
important legislation, your prompt action to halt the rampant 
waste resulting from the shark finning and solidify our 
national opposition to this terrible practice.
    Thank you for holding this hearing. I ask that no 
amendments be added to this legislation. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Cunningham follows:]

    [GRAPHIC] [TIFF OMITTED] T7602.004
    
    [GRAPHIC] [TIFF OMITTED] T7602.005
    
    Mr. Saxton. Duke, we want to thank you for your hard work 
on and dedication to this issue. It has been enjoyable to watch 
how hard you have worked on this and we appreciate your 
testimony.
    We have a vote on. We are voting on the Rule for the Budget 
Conference Report. I am going to introduce the second panel and 
then I think we will take a break, unless there are questions 
that someone wants to ask of Mr. Cunningham.
    We will proceed with the second panel as soon as we return 
which will be in ten or fifteen minutes. Let me just introduce 
our second panel before we go. We have Andy Rosenberg from 
NMFS. We have Mr. James Cook who is Chairman of the Western 
Pacific Fisheries Management Council who will come to us via 
satellite t.v.
    We have Mr. Fred O'Regan, President of the International 
Fund for Animal Welfare, another dedicated guy, and also Mr. 
William Aila, Harbor Master of Wai'anae Small Boat Harbor.
    If you folks would be ready in ten or fifteen minutes, we 
will go and vote and come back and then we will proceed. Thank 
you very much. We are in recess temporarily.
    [Recess.]
    Mr. Saxton. Mr. Faleomavaega has joined us. I would like to 
offer him the opportunity to make whatever short and concise 
opening statement he may have.
    Mr. Faleomavaega. Thank you, Mr. Chairman. In the interest 
of time, I know that I would like to look forward to hearing 
from our witnesses this morning. I do have a statement I would 
like to ask unanimous consent for submission as part of the 
record.
    Basically, I would also express my appreciation to the 
gentleman from California, Mr. Cunningham, for not only 
bringing this issue before the members of the committee, the 
resolution that was passed recently, expressing the sense of 
the Congress about the practice of shark finning.
    As you well know, Mr. Chairman, I do have some very serious 
questions about the whole issue of the problems that we are 
faced with as far as shark finning is concerned, the fact that 
it is totally banned from Federal waters in the Atlantic Region 
as well as the Gulf of Mexico, but that the practice continues 
in the Pacific Region.
    I have some specific questions that I will be asking the 
members of the panel at a later point. As you know, Mr. 
Chairman, I indicated earlier, when we had the hearing the last 
time about shark finning--saying that shark finning is somewhat 
morally and culturally repugnant to our Western values.
    I raised the same question, why are we eating horse meat at 
some of the most expensive restaurants in our country. What 
part of the horse is being discarded? Is that morally and 
culturally repugnant to our Western values? So there is a sense 
of a paradox and maybe it might even be an indication of 
hypocrisy on our part. If we are going to be banning shark 
finning, let's do the same thing for other food items that is 
somewhat repugnant to our values as far as eating horse meat in 
some of the most expensive restaurants in New York and other 
major cities in our country.
    With that, Mr. Chairman, I would love to hear from our 
witnesses and see where this hearing is going to take us. Thank 
you.
    [The prepared statement of Mr. Faleomavaega follows:]

    [GRAPHIC] [TIFF OMITTED] T7602.006
    
    [GRAPHIC] [TIFF OMITTED] T7602.007
    
    Mr. Saxton. Thank you, Mr. Faleomavaega.
    Mr. Gilchrist?
    Mr. Gilchrist. Thank you, Mr. Chairman. Just a brief 
comment. I think it is important for all of us to accept to 
diversity of the traditions in the various cultures around the 
world and not place any judgment on them. I think Mr. 
Faleomavaega's comment is correct, if one culture eats horse 
meat and another culture eats shark-fin soup, I think that is 
something that we should have tolerance for and mutual respect 
for.
    But I think the issue here today is to discuss, with all 
the various interests of the diversities of the cultures of the 
world, the importance of managing the resources so that they 
can be sustained for generations to come. If there was a 
problem with horses becoming extinct or overexploited, then we 
should ensure that the management of that stock is managed 
properly.
    If there is a problem with sharks because they have 
dramatically become popular around the world for their fins for 
various reasons, then I think we should move in quickly, manage 
that resource the way we would manage any other resource.
    So whether it is shark finning or shark teeth or shark 
brain or whatever it is, we should insure that sharks don't 
become overexploited, threatened or endangered. So I look 
forward to the testimony, Mr. Chairman.
    Mr. Saxton. Thank you, Mr. Gilchrist.
    We are going to hear first from Deputy Administrator for 
Fisheries, Dr. Andrew Rosenberg. Then we are going to hear from 
Frederick O'Regan of the International Fund for Animal Welfare. 
Then we will hear from Mr. William Aila of the Wai'anae Small 
Boat Harbor--oh; I'm sorry. We are also going to hear, direct 
from Hawaii, Mr. James Cook, Chairman of the Western Pacific 
Regional Fishery Management Council. Sorry about that, Mr. 
Cook.
    Dr. Rosenberg?

      STATEMENTS OF ANDREW A. ROSENBERG, DEPUTY ASSISTANT 
ADMINISTRATOR FOR FISHERIES, NATIONAL MARINE FISHERIES SERVICE, 
     NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. 
 DEPARTMENT OF COMMERCE; JAMES COOK, CHAIRMAN, WESTERN PACIFIC 
 REGIONAL FISHERIES MANAGEMENT COUNCIL; FREDERICK M. O'REGAN, 
PRESIDENT, INTERNATIONAL FUND FOR ANIMAL WELFARE; WILLIAM AILA, 
           HARBOR MASTER, WAI'ANAE SMALL BOAT HARBOR

                 STATEMENT OF ANDREW ROSENBERG

    Mr. Rosenberg. Good morning, Mr. Chairman and members of 
the subcommittee. I am Andrew Rosenberg. I am the Deputy 
Director of NOAA's National Marine Fisheries Service and I 
would like to thank you for inviting the agency to address you 
today on H.R. 3535, a bill to eliminate the practice of shark 
finning.
    NOAA believes the practice of finning results in 
overfishing, undermines the conservation of vulnerable shark 
populations and is wasteful. We have clearly stated our 
position in previous hearings, in council meetings and in 
international negotiations connected with shark management.
    NOAA has taken a major step in achieving shark conservation 
by prohibiting shark finning in the Atlantic, Gulf of Mexico 
and Caribbean, as has been noted in some of the opening 
statements, and on the Pacific Coast, most finning is 
prohibited by state landing rules.
    The majority of shark finning by U.S. fishing vessels is 
currently being conducted in the Central and Western Pacific. 
NOAA has made our position clear in the Western Pacific 
Fisheries Management Council on the need to address the shark-
finning issue for U.S. waters in that region.
    In addition, the United States is a leading proponent of 
international shark conservation in a variety of fishery 
management fora. We have led the development in the food and 
agricultural organization of the U.N. of an international plan 
of action for the conservation and management of sharks, and 
that plan of action calls for individual nations to develop 
national plans of action that prohibit wasteful fishing 
practices such as shark finning by requiring full utilization 
of all sharks harvested.
    NOAA has developed a draft national plan of action pursuant 
to the international plan for the conservation and management 
of sharks and a final plan of action is expected out later this 
year. In addition, we have just published a petition for 
rulemaking that seeks to prohibit shark finning in Western 
Pacific Waters. That petition was presented by a coalition of a 
number of groups to the Secretary.
    A large proportion of the sharks harvested in the Central 
and Western Pacific are blue sharks which are not considered 
desirable as food because of the high urea content of the flesh 
that causes the meat to spoil rapidly during storage.
    We have limited data on blue-shark populations, as we have 
limited data on most shark populations in the Central and 
Western Pacific. The available information indicates that blue 
sharks are probably not currently overfished but, like all 
sharks species, they are highly vulnerable to overfishing.
    Other shark species are even more vulnerable than blue 
sharks to overfishing because they have a very low reproductive 
rate, a very long life span and a very high age of maturity. 
So, in spite of the fact that blue sharks may not currently be 
overfished and they are the primary species taken in the 
fishery, there are very serious conservation concerns on the 
impacts of finning on both blue sharks, ultimately leading to 
overfishing, or in other shark populations that are even more 
vulnerable.
    Because finning and storage of unprocessed fins can be 
accomplished at very low cost, and the product is of extremely 
high value, there is a great propensity to overfish the 
resource.
    NOAA data show that there has been a very dramatic 25-fold 
increase in the number of sharks killed in the Hawaii longline 
fishery from 1991 to 1998, and 98 percent of those sharks were 
killed only for their fins. In 1998, we estimate that 60,000 
sharks were finned in the Hawaii longline fishery.
    Foreign-flag vessels that capture and fin sharks in 
international waters are prohibited from landing those fins in 
Hawaii. Consequently, many of these vessels transship shark 
fins to U.S. vessels that are allowed to land fins in Hawaii. 
In 1998, U.S. vessels landed 120 metric tons of shark fins in 
Hawaii that had been transshipped with a value of between $2.3 
million and $2.6 million.
    One issue that requires serious consideration is the 
imports of processed shark fin from other countries that do not 
prevent finning. The issue is the practice of finning, not the 
use of shark fins. Unilaterally prohibiting finning within U.S. 
waters while continuing to import processed fins does not 
necessarily fully solve the problem.
    While the bill strengthens U.S. shark conservation, the 
Administration feels it is important to address international 
shark conservation as well and we have been doing that in the 
international fisheries fora. In fact, the Administration has 
taken this issue very seriously and created a committee between 
NOAA and the International Trade Administration and the U.S. 
Trade Representative's Office to consider how we may further 
address international efforts to prohibit the practice of shark 
finning.
    In conclusion, Mr. Chairman, we very much welcome the 
attention that Congress has paid to this issue. The 
Administration looks forward to consulting closely with you as 
you try to resolve both domestic and, potentially, the global 
aspects of shark finning.
    We really appreciate your strong interest. That concludes 
my testimony. I would be happy to answer any questions. Thank 
you.
    [The prepared statement of Mr. Rosenberg follows:]

    [GRAPHIC] [TIFF OMITTED] T7602.008
    
    [GRAPHIC] [TIFF OMITTED] T7602.009
    
    [GRAPHIC] [TIFF OMITTED] T7602.010
    
    [GRAPHIC] [TIFF OMITTED] T7602.011
    
    Mr. Saxton. Thank you very much, Dr. Rosenberg. I had 
intended to move into Mr. Cook's testimony next. I am not sure 
if he is available at this moment. Here he comes.
    Thank you, Mr. Cook. We are anxious to hear your testimony 
as well, sir. Thank you for the progress that you have provided 
on this issue. We appreciate that very much and we are anxious 
to hear your testimony.

                    STATEMENT OF JAMES COOK

    Mr. Cook. Good morning, Chairman Saxon, committee members. 
I am James Cook. I am the current Chair of the Western Pacific 
Fishery Management Council. The Western Pacific Council has 
authority over the fisheries in the Federal waters surrounding 
the U.S. Pacific islands, which comprise 48 percent of the U.S. 
exclusive economic zone.
    The Council has adopted measures to restrict Hawaii's 
longline fleet to a one-shark-per-trip limit for all non-blue 
shark species (they are to be landed whole) and a 50,000 annual 
quota for blue sharks to be adjusted periodically.
    The Council encourages the committee to support regionally 
based fisheries management through the Council process and to 
insure that the Magnuson-Stevens Act amendments reflect the 
full sweep of national standards for fisheries conservation and 
management including scientifically based management, allowance 
for variations amongst fisheries and the importance of fishery 
resources to fishery communities.
    The mortality levels of sharks in the Western Pacific 
Region where finning is allowed in both Federal and state 
waters is one-tenth the level of the East Coast and the Gulf of 
Mexico where finning is not allowed in Federal waters and most 
state waters.
    In the Western Pacific Region, the blue shark accounts for 
the majority of sharks caught and makes up 95 percent of the 
Hawaii longline shark catch. The minimum stock size of the 
North Pacific blue sharks are estimated by Nakano and Wataname 
in 1991 to be between 52 million and 67 million sharks. The 
blue shark has a demonstrated ability to withstand sustained 
fishing pressure.
    The Regional Fisheries Management Councils are integral to 
the fisheries federalism ordained by the 1976 Fisheries 
Conservation and Management Act. The John Heinz III Center for 
Science, Economics and the Environment noted ``The formation of 
the Regional Fishery Management Council system under the 1976 
FCMA is viewed by many as the most beneficial and important 
innovation in fisheries management.''
    During the past twenty-four years, the Western Pacific 
Council has continually lead the way on many conservation 
issues. The current status of stocks in the Western Pacific 
Region attests to the Council's good track record. The Center 
for Marine Conservation, in its publication, ``Missing the 
Boat,'' praised the Western Pacific Council on several 
accounts.
    The Western Pacific Council has approached the issue of 
shark conservation and management with the same innovation, 
attention to detail and integrity to the council process as it 
has demonstrated in addressing other issues.
    While the National Marine Fisheries Service position is 
that the removal of the fins of a shark and discarding the 
carcass at sea is wasteful practice, NMFS has said it prefers 
to work through the council process and has no desire to 
undermine council authority.
    An amendment to the Magnuson-Stevens Act that would define 
``waste'' would help and it is preferred to actions that 
selectively restrict one fishery while allowing other fisheries 
with similar waste associated with them to continue.
    Better observer coverage on fishing vessels would also help 
with shark conservation and management and other fishery 
issues. Current observer coverage indicates that 98 percent of 
the sharks that are finned by the Hawaii longline fleet are 
done so after they are dead.
    The proposed listing of shark finning as an unlawful act 
for all U.S. Federal waters lumps all shark species and shark 
fisheries together and distracts the more important shark 
conservation and management issues such as needed population 
assessments and international agreements on shark fisheries.
    The Council asks the committee to maintain the regional 
approach to fisheries management. Committee members, like Mr. 
Aila, my Hawaiian lineage precedes the white man's first 
contact with Hawaii. My father was born in Hilo, on the Island 
of Hawaii. My mother was born to Waimea on Kauai.
    I learned my fishing from my uncle in Kona where I spent 
all the summers of my youth. I have been involved in commercial 
fishing all of my adult life. Different cultures have different 
beliefs about fishing and the sea. The Western Pacific Region 
has tremendous cultural diversity and the Magnuson-Stevens Act 
gives the flexibility and process to rulemaking which has made 
our fisheries the success it is.
    With me this morning are council members and 
representatives from the Western Pacific Council areas. They 
are asking me, What do you know about the region? Why are you 
seeking to subvert this process in setting mandates 8,000 miles 
across the ocean to an ocean and a people you don't really 
know? What do you know about Guam? Do you know the Samoan 
culture? Did you know that the Port of Guam lands nearly $100 
million worth of fish annually, making it the fourth most 
important U.S. port?
    Did you know shark fins are a big business there? Did you 
know that, in the Northern Mariana Islands, Council Advisory 
Panel Members have asked for technical assistance to develop 
targeted shark fisheries? What do you know about American Samoa 
besides the Honorable Eni Faleomavaega? Did any of you know 
that commercial fishing directly employs 30 percent of the 
population, that the Port of Pago Pago lands $232 million worth 
of fish annually making it the most important U.S. port in 
value of landings, but that only $1 million was landed by 
American Samoan fisheries, that this council has effected a 
limited-entry program and proposed an area closure to large 
vessels designed to foster the growth of Samoan fisheries so 
that the proud people of Samoa can harvest their own resources?
    You should understand this is a special-interest issue 
brought to you by well-funded NGO's. You know the record of 
this council. You have seen the active and proactive and 
precautionary management on sharks. Please help us conserve the 
Magnuson-Stevens Act and give Pacific Islanders a continuing 
voice in controlling their own resources.
    Thank you very much.
    [The prepared statement of Mr. Cook follows:]

    [GRAPHIC] [TIFF OMITTED] T7602.012
    
    [GRAPHIC] [TIFF OMITTED] T7602.013
    
    [GRAPHIC] [TIFF OMITTED] T7602.014
    
    [GRAPHIC] [TIFF OMITTED] T7602.015
    
    [GRAPHIC] [TIFF OMITTED] T7602.016
    
    [GRAPHIC] [TIFF OMITTED] T7602.017
    
    [GRAPHIC] [TIFF OMITTED] T7602.018
    
    [GRAPHIC] [TIFF OMITTED] T7602.019
    
    [GRAPHIC] [TIFF OMITTED] T7602.020
    
    [GRAPHIC] [TIFF OMITTED] T7602.021
    
    [GRAPHIC] [TIFF OMITTED] T7602.022
    
    [GRAPHIC] [TIFF OMITTED] T7602.023
    
    [GRAPHIC] [TIFF OMITTED] T7602.024
    
    [GRAPHIC] [TIFF OMITTED] T7602.025
    
    [GRAPHIC] [TIFF OMITTED] T7602.026
    
    [GRAPHIC] [TIFF OMITTED] T7602.027
    
    [GRAPHIC] [TIFF OMITTED] T7602.028
    
    [GRAPHIC] [TIFF OMITTED] T7602.029
    
    [GRAPHIC] [TIFF OMITTED] T7602.030
    
    Mr. Saxton. Mr. Cook, thank you very much.
    We are now going to move to Mr. O'Regan.

               STATEMENT OF FREDERICK M. O'REGAN

    Mr. O'Regan. Mr. Chairman, Mr. Faleomavaega, thank you very 
much. I am Fred O'Regan. I am the President of the 
International Fund for Animal Welfare and I am very pleased to 
be here today and to lend our strong support to H.R. 3535.
    IFAW, to those of you who may not know us, is a global 
nonprofit animal welfare and conservation organization. We have 
offices in twelve countries, in Europe, North America, Asia and 
Africa with our headquarters in Massachusetts, on Cape Cod.
    We, as a matter of policy, do not solicit or accept 
government funds so that we have don't have prejudiced 
positions on policy. We, instead, rely on the generous support 
of our 2 million members worldwide who promote our balanced 
animal-welfare and conservation policies that advance the well-
being of both animals and people.
    The focus of our work, especially in marine activities, has 
largely been on scientific research and policy development in 
International Trade in Endangered Species, CITES, and the 
International Whaling Commission. This work is critical to 
wildlife conservation and animal welfare, but it is often not 
front-page news.
    For example, IFWA scientists and policy advisors have 
provided the foundation for the International Whaling 
Commission's current moratorium on commercial whaling and the 
creation of the internationally recognized Southern Ocean 
Sanctuary in the waters around Antarctica.
    We are both a campaigning organization and one that 
directly supports conservation and animal-welfare organizations 
around the world. We spend over $12 million a year in, for 
example, expanding parks and habitat for African elephants as 
well as working with both governments and non-governmental 
communities worldwide.
    Our latest success, as I think some people know, is in 
organizing an international campaign to save Laguna San 
Ignacio, the last pristine breeding grounds for Pacific Grey 
Whales in Mexico.
    I have just returned from Mexico City, actually, and, for 
the record, Mr. Chairman, would like to, again, give our 
sincere thanks both to President Cedillo, to Secretary Carabias 
and to the Mitsubishi Corporation for saving this pristine 
wilderness habitat forever.
    In this country, we are providing ongoing financial and 
scientific support with NMFS, with the Coast Guard and a 
variety of research institutions to save the highly endangered 
Northern Right Whale.
    Mr. Chairman, the issue before us today we feel is 
extremely important. Shark finning is a cruel and wasteful 
practice that is threatening the world's shark populations. It 
must be stopped not just in U.S. waters but around the globe. I 
think that is somewhat the value that IFAW brings to this 
discussion.
    Finning is growing at an alarming rate. I don't have to, I 
think, repeat, many of the statistics that have already come 
forward but, in a practical way, which is our way, we are 
working, for example, through our office in Beijing, in a 
cooperative program with the government of China and 
practitioners of traditional Chinese medicine around the world, 
including in the U.S., to find ways to manage the steadily 
growing demand for shark fins and cartilage in traditional 
medicine.
    We are also, now, supporting efforts by the governments of 
the U.K. and South Africa for the first time to put basking 
sharks and great white sharks on Appendage I of endangered 
species in CITES.
    In fact, we have a team right now in CITES and I know there 
are several members of the committee and staff in Nairobi as 
well. But even if all of these efforts are successful, they are 
not going to be enough to safeguard the future of the world's 
populations for sharks. As we know, globally, many shark 
populations are in serious decline. They are large. They are 
slow-growing, with relatively low reproductive rates.
    The United Nations, through FAO's International Plan for 
Action and Conservation of the Management of Sharks has begun 
addressing this. Although this plan calls for full utilization 
of sharks and the elimination of waste, the key thing is that 
it is a voluntary plan.
    With this in mind, IFAW believes there are three distinct 
issues that should be addressed in the Shark Finning 
Prohibition Act. First, we believe the bill should prohibit 
shark fishing by all U.S. fishermen on all vessels and in all 
fisheries under the jurisdiction of the United States.
    We believe this is the intent of 3535 and would encourage 
you to insure that U.S. fishermen and vessels are covered when 
fishing on the high seas or in foreign waters not withstanding 
any other agreement or law that might preclude enforcement of a 
finning prohibition. Ending wasteful finning by U.S. fishermen 
alone will not, of course, end this practice. We know that U.S. 
fishermen account for only 2 percent of shark finning in the 
Central and Western Ocean.
    However, and I think this is critical, the U.S. does serve 
as an important conduit in the shark-fin trade. In the Pacific, 
foreign fleets transship or land approximately 180 metric tons 
of shark fins annually through U.S. ports and vessels.
    With this in mind, Mr. Chairman, our second point is that 
the legislation you are developing we hope can be expanded to 
stop the traffic of fins through U.S. ports by prohibiting the 
transshipment of fins taken by shark finning. We believe that 
the Magnuson Act should be amended to insure U.S. ports and 
vessels are not used to subvert your efforts to end shark 
finning and would suggest that Section 307(1)(J)--and excuse me 
if there is a typo in some of the original drafts of this that 
said 301(J); it is actually 307(1)(J)--could serve as a model 
for that provision.
    If you will recall, Section 307(1)(J) makes it unlawful for 
any person to ship, transport, offer or sell or purchase in 
interstate or foreign commerce any live lobster that does not 
conform to certain conservation measures outlined in the 
statute.
    The critical thing here is obviously we are not comparing 
lobsters and sharks. What we do see is a precedent and a 
regulatory mechanism which we think could be seen as a model 
for how to put a regulatory and enforcement regime behind your 
efforts to end shark finning.
    Mr. Chairman, I would also say that IFAW would be pleased 
to work with you and your staff in further developing this 
provision to stop transshipment of shark fins.
    Our third and final point is that any shark finning around 
the world will necessarily involve international efforts and 
require U.S. leadership. The bill before you, we believe, 
should be amended to include the views of Congress and how this 
should be accomplished. IFAW believes that the successful 
efforts and the precedent of the United States in ending large-
scale driftnet fishing can serve as a very useful model.
    As you recall, the first step for the U.S. in achieving 
prohibition was the practice of ending it in our own waters. 
This increased the strength and credibility of our negotiators. 
In 1987, Congress passed the Driftnet Impact Monitoring 
Assessment and Control Act. In addition, to preventing U.S. 
fishermen from engaging in large-scale driftnet fishing, 
directed the Department of State to undertake certain 
deliberate actions to achieve an international ban.
    These efforts involve diplomatic initiatives at the United 
Nations, regional fishery management bodies in world capitals. 
We, at IFAW, believe achieving an international ban on shark 
finning will involve a similar effort and similar mandates 
should be included in the bill.
    Attached to my testimony is some suggested legislative 
language concerning international negotiations and reporting. I 
would ask you to take a look at it. We know that an 
international ban will not happen right away, but we also know 
that much can be accomplished if your committee and the 
Congress act immediately to begin this process. The precedent 
is there. We have been successful with this in the past. We 
believe it can be done again.
    Finally, while prohibiting shark finning internationally is 
a critical step in protecting the world shark populations, it 
is not the only step that must be taken. As we all know, 
regional national management bodies must adopt shark 
conservation measures to prevent overfishing and adopt a 
precautionary approach for species about which we have little 
or no information.
    Again, low-productivity species of sharks should receive 
special attention and critical habitats must be protected and 
important biological and fishery management data must be 
assessed to improve our understanding of sharks.
    In closing, Mr. Chairman, I would like to, again, thank you 
for inviting me here and I would simply like to say that I mean 
it when I say it that IFAW and other NGO's are perfectly 
willing, on an international basis, to try to move this forward 
in any way that we can.
    So we remain at your disposal and we congratulate you on 
your leadership in this initiative.
    Thank you very much.
    [The prepared statement of Mr. O'Regan follows:]

    [GRAPHIC] [TIFF OMITTED] T7602.031
    
    [GRAPHIC] [TIFF OMITTED] T7602.032
    
    [GRAPHIC] [TIFF OMITTED] T7602.033
    
    [GRAPHIC] [TIFF OMITTED] T7602.034
    
    [GRAPHIC] [TIFF OMITTED] T7602.035
    
    [GRAPHIC] [TIFF OMITTED] T7602.036
    
    [GRAPHIC] [TIFF OMITTED] T7602.037
    
    Mr. Saxton. Thank you very much, Mr. O'Regan.
    Mr. Aila?

                  STATEMENT OF WILLIAM J. AILA

    Mr. Aila. Aloha, Mr. Chairman and honorable members of this 
subcommittee. Aloha, Representative Abercrombie. Palofa, 
Representative Faleomavaega.
    My name is William Aila. I am here to testify before you 
today as a native Hawaiian fisherman. I am from the District of 
Wai'anae which lies about thirty miles west of Honolulu on the 
Island of Oahu.
    I have served on the WestPac's Fisheries Pelagic Advisory 
Panel for over eleven years and served as a Co-Chair for the 
panel for two terms. I would like to thank Chairman Saxton and 
members of the subcommittee for the invitation to offer 
testimony on this very important bill.Very importantly, my 
ancestors are honored, my family is honored and I am humbly 
honored to be here.
    I would like to thank Representative Cunningham, ``Duke,'' 
as he introduced himself to me a few minutes ago, and his 
colleagues for having the courage and vision to introduce this 
bill.
    I am pleased to announce that on Wednesday, April 5, the 
Hawaii State Senate Committee on Water, Land and Hawaiian 
Affairs unanimously passed House Bill 1947. This bill would ban 
the landing of shark fins in Hawaii unless the shark is landed 
whole. I am proud to say that the Chairperson of the Senate 
Water Land and Hawaiian Affairs Committee, Colleen Hanabusa, 
represents my very own district in Wai'anae.
    I humbly request the committee's forgiveness of any 
breaches of Washington protocol that I may be unaware of as 
this is my first time testifying and I must tell you, I am very 
nervous at this point.
    Mr. Saxton. It doesn't show. You are doing very well.
    Mr. Aila. I will restrict my comments to shark-finning 
concerns within the Western Pacific Region and under the 
auspices of the Reauthorized Magnuson-Stevens Fisheries 
Conservation and Management Act.
    The Magnuson-Stevens Act sets out three primary criteria 
for Regional Management Fisheries Councils to base its 
fisheries-management plans or FMPs on. The WestPac, in its 
February 2000 meeting in Honolulu, has chosen, in my opinion, 
to ignore at least one criteria and to belittle the other two.
    In its proposed shark FMP, WestPac would authorize the 
finning of 50,000 blue sharks per year wasting over 95 percent 
of that resource. How WestPac could have justified this 
proposal on any criterion other than greed mystifies me.
    FMPs are supposed to be based on the following criteria; 
biological. WestPac relied on National Marine Fishery Service 
analysis of Japanese logbook data. However, the Japanese fleet 
represents only about 30 percent of the total effort in the 
Pacific. They failed to obtain or consider data from the South 
Koreans, Taiwanese, Chinese and Russian fleets. Basing a 
scientific model on a foundation of only 30 percent of the 
total information is a recipe for failure.
    Economic; estimated income from shark finning to Hawaii-
based longline fishermen range from ``beer money,'' as 
described to me a few years ago by James Cook, the current 
Chairman of WestPac, to about $2500 per crew member per year or 
about 11 percent of the estimated annual wage.
    ``Estimated'' needs to be emphasized here because no one 
knows for sure how much revenue is generated from shark-fin 
sales. Sales are conducted in cash and generally treated as 
unreported income. As such, tax revenue is not realized by 
either the state or Federal Governments.
    Allowing the finning of sharks and the outright waste of 
shark resources for what amounts to a little more than beer 
money is terrible and an unacceptable waste, and violates the 
spirit of the Magnuson-Stevens Act which requires a reduction 
in waste.
    Social, which is the third criterion; social aspects 
include cultural practices and beliefs both past and present 
and, in the case of Hawaiian's, WestPac, at the direction of 
its Chairman Cook, completely ignored Hawaiian cultural 
practices and values and chose not to wait until a requested 
cultural study was completed.
    WestPac proceeded with its shark FMP despite pleas from 
native Hawaiian fisherman to consider the social impacts. 
Hawaiians consider the taking of sharks for only their fins as 
wasteful and offensive. We encourage full utilization or no 
utilization.
    Individual sharks of many species known to Hawaiians 
including blue sharks served and continue to serve as family 
guardians. My grandfathers and great grandfathers cared for 
certain sharks, our family Aumakua. Kamohoali'i is the name of 
the shark that I malama, or care for.
    The relationship is that of a grandchild to a grandparent. 
The relationship doesn't end when that grandparent dies. The 
values, the lessons and respect never diminish. The need for 
advice continues. How many times, in your life, have you 
thought back to the words of your grandfather or grandmother 
for guidance in troublesome times or while contemplating 
important decisions.
    The answer is, we all have. How would you feel if someone 
were to sever that connection between you and your grandparent. 
How would you feel if someone were to kill one of your 
grandparents just for ``beer money?'' The thought turns and 
twists at my intestines or, as we refer to it in Hawaii, as our 
na'au. This is exactly how I feel about my Aumakua and the 
thought of shark finning offends me.
    I urge the committee, and later the full House, and, 
hopefully, the Senate, to pass this bill and end this wasteful, 
offensive and unnecessary practice. My culture, your culture 
and the precautionary policies within the Magnuson-Stevens 
Fisheries Conservation and Management Act demands it.
    I would just like to say mahalo for the opportunity to 
present this testimony and I am very honored that I was invited 
to speak.
    Thank you.
    [The prepared statement of Mr. Aila follows:]

    [GRAPHIC] [TIFF OMITTED] T7602.038
    
    [GRAPHIC] [TIFF OMITTED] T7602.039
    
    [GRAPHIC] [TIFF OMITTED] T7602.040
    
    [GRAPHIC] [TIFF OMITTED] T7602.041
    
    [GRAPHIC] [TIFF OMITTED] T7602.042
    
    [GRAPHIC] [TIFF OMITTED] T7602.043
    
    [GRAPHIC] [TIFF OMITTED] T7602.044
    
    [GRAPHIC] [TIFF OMITTED] T7602.045
    
    Mr. Saxton. Thank you very much, Mr. Aila. Before we go 
into the question and answer session, let me welcome back the 
gentleman from Hawaii, Mr. Abercrombie, who has joined us. I 
understand that it is necessary for me to ask unanimous consent 
that he be permitted to sit on the panel as much as he is no 
longer a member of the panel. We want to welcome you back.
    Do you have anything that you would like to say at this 
time in terms of a statement?
    Mr. Abercrombie. Not at this point, Mr. Chairman. Thank 
you.
    Mr. Saxton. Thank you very much.
    Let me begin the questioning with--we have heard from a 
number of folks who are knowledgeable about the subject of 
shark finning including Mr. Cook and Mr. Aila and Mr. O'Regan 
and Dr. Rosenberg, as well. Also, we have heard from the State 
Senate in the State of Hawaii who, apparently, have passed a 
state bill which is similar in nature to this bill.
    I guess I would just like to begin by asking each of the 
panel members their specific thoughts on this bill in as much 
as there is some difference of opinion. This bill, in some 
people's view, doesn't go far enough. In other people's view, 
it goes too far.
    If you would just each take about a minute or a minute and 
a half to give us your position specifically on this piece of 
legislation and, if you had your druthers, how you might like 
it amended or changed.
    Dr. Rosenberg?
    Mr. Rosenberg. Thank you, Mr. Chairman. With regard to this 
piece of legislation, we support a ban on the practice of shark 
finning for U.S. fishermen. A remaining concern is how this 
deals with the international-trade issues. I believe Mr. 
O'Regan referred to some of the possible means that might be 
used to consider those trade issues.
    We, as I noted in my testimony, have asked our 
International Trade Administration and the U.S. Trade 
representative to consider the issue further. We do feel it is 
important to develop either administratively or by other means 
some measures to deal with the trade issue.
    So I guess we would fall into the category of feeling that 
the bill is strong and appropriate but there may be some other 
issues that need additional attention. I can't, at this stage, 
tell you whether I think they need to be included in this bill 
or whether there are other means of dealing with some of the 
trade concerns.
    Mr. Saxton. Would you support the action of this 
subcommittee if we chose to move this bill forward as it is 
written?
    Mr. Rosenberg. Yes.
    Mr. Saxton. Thank you.
    Mr. Cook?
    Mr. Cook. I think that the bill, as it is currently 
written, is misdirected. The most important issue having to do 
with sharks on a worldwide basis is shark management and 
conservation. This council, as you know, has done its job in 
putting in conservation limits. When you look at the situation 
that exists around the continental United States where the 
shark mortality is ten times what it is here in our region, I 
think that what you have to understand is simply to come up and 
make the Western Pacific and other areas of the world comply 
with the example of the United States and its coastal waters, 
you can see that is a real problem.
    We would hope that the bill would be killed.
    Mr. Saxton. Thank you.
    Mr. O'Regan?
    Mr. O'Regan. Thanks, Mr. Chairman. I think that I deal with 
some specifics in my testimony. But I would certainly support 
the bill as currently drafted. We think that in one sense, 
though, what the bill really does is simply sort of close the 
final loop on the United States implementing its already 
international agreements.
    We have signed on to the Code of Conduct for Responsible 
Fisheries and the FAO International Plan of Action for Sharks. 
In both of those, really, it is incumbent, as I think we all 
know, to lower waste, to try to stop mortality of the bicatch.
    So I think that, by WestPac being essentially sort of the 
odd man out here, that this bill would close that loophole. I 
think for all of us, as Dr. Rosenberg has said too, the 
international trade aspects of this loom large. It is only 2 
percent. We see this as a starting point but, again, I would 
emphasize the precedence that is there both in the Magnuson Act 
as well as in the driftnet provisions in which the United 
States led such a role.
    The one thing I would add is that I think that the ongoing 
talks on straddling stocks agreement is probably a good basis 
for negotiations to start with. There are many international 
fora but we think that the bill really starts us down that 
road.
    Mr. Saxton. Thank you.
    Mr. Aila?
    Mr. Aila. Thank you, Chairman Saxton. I would like to start 
off by saying, first of all, I would highly recommend that you 
pass this bill further on and add two more points, one being 
that this bill brings some consistency to national policy. The 
U.S. must lead by example.
    There are efforts going on in the international arena to do 
the same thing or to bring waste under control. So the U.S. 
must lead by example. The passing of this bill would accomplish 
that.
    Thank you.
    Mr. Saxton. Thank you, sir.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman. I think I would 
be remiss if I do not express my personal aloha to Mr. Aila. I 
want him to know that a special aloha from a graduate of Kahuku 
High School to an alumni of Wai'anae High School. I want him to 
feel very much at home. Although I am wearing a monkey suit 
that I have to do every day as part of the job, my preference, 
really, would be an aloha shirt----
    Mr. Saxton. What does that make the rest of us who wear 
those things?
    Mr. Faleomavaega. I look at Mr. Cook. He looks so 
comfortable wearing an aloha shirt and feeling very comfortable 
and I have to wear a tie that chokes me up every day.
    I want Mr. Aila to feel very comfortable, that I have ohana 
there at Wai'anea and I would like for him to please express my 
fondness and aloha to my good mother, Mama Aggie Cope. She 
hanaed me and my brother Kamaki Kanahalae. Please express to 
them my love and aloha.
    So, brother, no feel bad. You home.
    Mr. Aila. Thank you.
    Mr. Faleomavaega. That was English, by the way, Mr. 
Chairman, in its highest form.
    But I would like to ask some questions to Dr. Rosenberg, my 
good friend, from NOAA. This is not an indictment of WestPac, 
Mr. Cook, I just wanted to get some data and facts understood 
for the record. The problem, as least as it has been expressed 
by some of the proponents of the bill, to the extent that 
provisions of the bill do not go far enough in controlling 
shark finning. If you want to kill a shark, you have to bring 
the whole body to the shore and then it is OK to continue 
killing, shark finning?
    Is that an acceptable concept with the Administration, 
which the bill provides, or allows?
    Mr. Rosenberg. Yes; it is acceptable. The reason for that 
is because it removes that propensity to overharvest or 
overexploit that I referred to before as well as reducing 
waste. But the primary issue here is not to promote a future 
overharvest.
    Mr. Faleomavaega. I have also received some reports from 
WestPac under Mr. Cook's Chairmanship that WestPac has been 
very, very highly critical of the National Marine Fisheries 
Service for their being uncooperative and that, for the past 
three or 4 years, WestPac has been asking the National Marine 
Fisheries Service for a comprehensive study, research and 
report on this whole question of shark finning and its current 
practice.
    It is my understanding that there will be a report 
forthcoming next month comprehensive enough to add the concerns 
of the members of the committee and everybody that is concerned 
about shark finning.
    Dr. Rosenberg, will you be comfortable enough with this 
report that is supposed to be coming up next month that it will 
answer a lot of the questions and concerns that we have on this 
issue?
    Mr. Rosenberg. First of all, I would say that we have 
provided previous information, a number of contract reports and 
so on, to WestPac as all the members of the committee know and 
everyone involved in the fishery management process knows, we 
all would like to have better data on every issue at all points 
in time.
    So we always make decisions with less than perfect 
information. We often make decisions with rather skant 
information. So I think it is important to realize we have 
provided information over a period of time with the research 
that we have available to WestPac on this issue.
    The new report, I think, will add to that information. Will 
it answer all questions? That is difficult for me to say. I 
hope it will address many of the issues that have been raised, 
but whether questions have been answered to satisfaction I 
think might lie in the eyes of the beholder.
    So, again, I think that we will be providing additional 
information that will be important to WestPac. I believe we 
have sufficient information on the table to move forward with 
this part of the needed shark conservation measures.
    Mr. Faleomavaega. How long has the National Marine 
Fisheries Service taken to come up with this report coming up 
next month? Has this been a 2-year study, a 3-year study? How 
comprehensive has it been for them to do this?
    Mr. Rosenberg. Just one moment; if I could just check with 
my colleagues. The report that you are referring to is an 
updated assessment of blue sharks that has been conducted over 
the last several years, two to 3 years, trying to put together 
additional data, not just the Japanese logbook data that was 
referred to before.
    Mr. Faleomavaega. So, in effect, your report, really, and 
then under the auspices of WestPac as well, we are talking only 
about blue sharks.
    Mr. Rosenberg. Primarily blue sharks; yes.
    Mr. Faleomavaega. But totally absent is data on other 
varieties of sharks that are also being killed or for purposes 
of shark finning; am I correct on this?
    Mr. Rosenberg. Congressman, I believe that there is some 
other information on other sharks from observer logs and from 
landing reports and so on. However, we do not have an 
assessment for the other shock stocks. In other words, we do 
not have a full analysis of how that relates to how heavily 
exploited those sharks populations are. But there is some other 
data; yes.
    Mr. Faleomavaega. So, basically, you are saying we still 
have problems with data and fact information on the issue.
    Mr. Rosenberg. Absolutely.
    Mr. Faleomavaega. That is the same claim also that WestPac 
makes for all this time, that there is a lack of evidence and 
data on this issue so let's continue giving a quota of 50,000 
sharks that can be used for finning for blue sharks. It seems 
to address only the issue with Hawaii's problem, but it doesn't 
really address the problems also in other insular areas.
    Mr. Rosenberg. There has been a report, of course, of the 
level of landings and the economic impacts in other areas that 
we discussed at last year's hearing.
    Mr. Faleomavaega. So, in effect, there is absolutely no 
data--I shouldn't say absolutely, but there is really a 
tremendous lack of information on this issue for American Samoa 
as well as Guam and as well as the Northern Marianas.
    Mr. Rosenberg. There is much less data for those other 
areas. That is certainly correct. Again, I would indicate that 
we believe, to deal with the issue of shark finning, though, 
there is sufficient information although we, of course, would 
like to have better information to better manage sharks 
overall.
    Mr. Faleomavaega. As a matter of our national policy and 
for the sake of consistency, the fact that we ban shark finning 
in the Atlantic Region for purposes of--what was the reason for 
sharks being killed in Europe? Do they also eat shark-fin soup 
in Europe so much, or among the Atlantic countries, as to why 
we put a ban on shark finning in this region?
    Mr. Rosenberg. I believe it was for the export market as 
well, also exported to Asia.
    Mr. Faleomavaega. So, for all these years, we have put a 
slap on the councils and everybody in the Atlantic Coast Region 
but we have never done it until now for the Pacific Region.
    Mr. Rosenberg. Congressman, there is a difference in the 
way that the management plans are developed for highly 
migratory species on the Atlantic Coast. Those measures are 
developed directly by the Secretary, not through the council 
process, although it is in consultation with the councils.
    For the Western Pacific, the management measures for other 
migratory species are developed through the council process 
directly.
    Mr. Faleomavaega. So, basically, as part of our national 
policy, we are saying no more shark finning in the Atlantic 
because shark finning has been such a lucrative practice, it 
all goes to the Asian soup markets in Hong Kong and all those 
given areas.
    So now we are moving to the Pacific and putting the same 
pressure and requirements. This does not prevent these ships 
from continuing to conduct shark finning operations in 
international waters.
    Mr. Rosenberg. That is not quite correct. I believe if they 
are licensed to fish in the Hawaii longline fishery, then they 
are required to abide by the provisions of the plan wherever 
they fish.
    Mr. Faleomavaega. No; my point is, obviously, the intent of 
this legislation, you cannot do it anymore if this bill passes 
within Federal jurisdiction, EEZ zone, if you want to call it, 
but outside of our EEZ zones, these vessels can still conduct 
shark finning operations on waters that we have no jurisdiction 
over. Am I correct?
    Mr. Rosenberg. U.S. vessels may not. Foreign vessels may.
    Mr. Faleomavaega. Can still do it? This is what I meant.
    Mr. Rosenberg. Yes, and, in my testimony, I referred to our 
concerns about international trade and international 
protections.
    Mr. Faleomavaega. So as a signor to the United Nations Code 
of Conduct for responsible fisheries, which the U.S. is a party 
to, are we perceiving shark finning similar to the same issue 
as killing of whales that the Japanese do on a quota basis, 
also some countries in Europe, I think Norway or one of 
countries? Is this the same move that our country, as part of 
its national policy, to put better restrictions on the killing 
of whales as well as sharks?
    Mr. Rosenberg. Congressman, I would say it is not quite the 
same. The U.S. position on whaling is a bit different, that we 
don't believe that whaling is appropriate practice except for 
use of indigenous peoples. In this case, we are talking about a 
management measure. We are not suggesting that it is 
inappropriate to ever harvest sharks but this method leads to 
overharvest because it is a very high-value product at very low 
cost.
    It is the same is leading to poaching of elephant ivory, I 
believe, was referred to in Congressman's Cunningham's 
testimony. Because it is worth so much money, it very quickly 
leads to overharvest.
    Mr. Faleomavaega. Would the Administration be supportive of 
an added provision in the bill that there is to be no 
importation of shark fins coming from any vessel, whether it is 
U.S. or foreign, into U.S. markets?
    Mr. Rosenberg. I can't fully answer that. I can say that 
the Administration is supportive of developing provisions that 
would deal with importation so that U.S. fishermen are 
operating on an equal footing with foreign fishermen but I am 
not sure if I could be definitive with the language as you 
cited it.
    So, going in that direction, yes; we would be supportive of 
it. But the details need to be worked out and that is why I 
referred to a committee----
    Mr. Faleomavaega. My concern is that we are making loop 
holes in something that we are trying to cure, and yet, at the 
same time, continuing to allow the foreign fishing industry to 
take shark fins as if nothing is happening. So we are putting 
restrictions on our fishing industry but absolutely nothing 
against foreign vessels that may want to bring in shark 
finning, like to Hawaii, for shipment.
    To me, I am against that.
    Mr. Rosenberg. Yes; and we are supportive of dealing with 
that loophole. The specific way you phrased it, I think I would 
have to consult with the trade people to know if that is best 
way to do it. But, yes, we are supportive of making sure that 
people are operating on an equal footing and that we do 
everything we can to encourage international constrictions.
    Mr. Saxton. If the gentleman will yield----
    Mr. Faleomavaega. Yes, Mr. Chairman. I will wait until the 
next round.
    Mr. Saxton. We are in the process of putting in conceptual 
form some further legislation on this subject.
    Mr. Faleomavaega. I look forward to working with the 
gentleman in refining those provisions and the language in the 
proposal.
    Mr. Saxton. I am with you. Thank you.
    Mr. Faleomavaega. Mr. Chairman, I know that my time is up 
but I would like to ask for another round after this.
    Mr. Saxton. Thank you.
    Mr. Gilchrist?
    Mr. Gilchrist. Thank you, Mr. Chairman. Mr. Rosenberg, or 
anybody else that wants to answer this question, sort of a big-
picture question dealing, certainly, with shark finning but 
dealing with the fisheries, in general. Mr. Rosenberg, you 
could probably look up, I would imagine, in an almanac, the 
population of the world at the turn of the last century, 1900.
    I would guess that it is unlikely that you could look up in 
an almanac the population of various fish stocks in the Year 
1900. The population of the planet has increased. I don't know 
what it was in 1900. Maybe it was 2 billion, 3 billion. It has 
probably doubled in the last hundred years.
    Is there a corresponding increase to the fisheries in that 
same given time?
    Mr. Rosenberg. Congressman, I am not sure I will get the 
numbers quite right but my understanding is that the world 
population has doubled in the last forty years so, by that 
standard, I think the population around the turn of the century 
would be at or less than 2 billion.
    The world fish catch plateaued at around 100 million metric 
tons several years ago. Around the turn of the century, it may 
have been about two-thirds of that, roughly, since I am doing 
this from memory, I apologize if I get the figures wrong, but 
has remained at about 100 million metric tons and is not 
anticipated to increase, or even have the capacity to increase, 
really, beyond that level even if overharvested stocks were 
rebuilt and those that are currently underharvested were fully 
exploited.
    There is not very much scope for change in the overall 
world fish catch. So, in answer, we have plateaued, but the 
world human population has certainly not plateaued yet. I hope 
that addresses your question.
    Mr. Gilchrist. It does. Thank you very much. So the 
importance of managing nationally and internationally this 
fragile industry is of paramount importance.
    Mr. Cook, you mentioned, and I was looking for it in your 
testimony but I couldn't find it, that fewer sharks are killed 
in the Western Pacific where there is shark finning than there 
are killed in the Atlantic or East Coast where shark finning 
has been banned.
    I am not sure if I understand that. You are saying, with 
shark finning, you actually have fewer sharks killed and where 
shark finning is banned, you have more sharks killed. Did I say 
that accurately?
    Mr. Cook. I believe that the Atlantic and Gulf Coast of the 
U.S. Economic Zone, the shark mortality there is approximately 
ten times what it is in the zone of the Western Pacific 
although the zone of the Western Pacific is three times as 
large as that area.
    Those fisheries in which sharks have the greatest problems 
are directed fisheries. As Mr. Rosenberg knows, there are many 
overfished shark fisheries in your area. There are none in our 
area. That is all I was trying to point out is that the shark 
mortality which this council has a very, very clear focus on, 
is much higher in the waters where shark finning is banned on 
the East Coast and the Gulf Coast than it is here in the 
Pacific.
    Mr. Gilchrist. Can you comment on that, Mr. Rosenberg?
    Mr. Rosenberg. Yes, sir. The two comments I would have is, 
first of all, it is quite correct to say that there are a 
number of shark stocks that are overfished on the Atlantic 
Coast and in the Gulf Coast. I am not sure it is correct to say 
that there are no sharks stocks that are overharvested in the 
Pacific.
    I think it is correct to say that we don't know, although 
there are grave concerns about a number of shark stocks in the 
Pacific, but we don't have comprehensive information. The fact 
that they are fully assessed does not mean that they are not 
overharvested.
    The second thing is, if I understood Chairman Cook's 
comparison of the mortality rates, I don't think that that 
comparison is terribly meaningful. I think he spoke in terms of 
the total level of harvest, but what you would need to do is 
compare for specific species how the current rate of harvest 
relates to their ability to sustain that harvest, and that is 
going to vary by species.
    So the figures he is citing, from a scientific perspective, 
were not terribly meaningful to me.
    Mr. Gilchrist. It sounds like there was a rationale for the 
continued practice of shark finning.
    Mr. Rosenberg. I also don't understand that point. Shark 
finning, again, like with any other practice that is very low 
cost for an extremely high-valued product, has a propensity to 
overharvest and there is no question that that propensity is 
being shown by the dramatic increase in shark finning.
    There is no evidence that the increase in shark finning is 
leveling off. It would seem to me fairly straightforward that, 
if we continue to increase the practice because the price is 
not dropping, that we will, ultimately, end up with severe 
problems in the Western Pacific and Central Pacific and, as 
this committee has noted to the agency several times, can't we 
address these problems before they occur as opposed to trying 
to scramble after they occur.
    Mr. Gilchrist. Thank you.
    Are we going to have another round, Mr. Chairman?
    Mr. Saxton. My intention is to have another round, if we 
can do it quickly. The Chairman has another panel to attend at 
1 o'clock, so if we can finish up in a half hour. I will pass 
on my next turn and go to Mr. Faleomavaega and then back to the 
other members.
    Mr. Abercrombie?
    Mr. Abercrombie. Thank you very much, Mr. Chairman. I will 
try to move rapidly.
    Mr. Rosenberg, I don't know if you had an opportunity to 
look at or review Mr. Cook's testimony, but one of the 
interesting points to me, and I think it relates to these other 
questions--I will just read it to you so you don't have to 
search for it.
    ``The National Marine Fisheries Service has contracted a 
study on the cultural significance of sharks in the U.S. 
Pacific Islands and is working with Japan's National Research 
Institute, the Far Seas Fisheries, on a population assessment 
of blue sharks in the North Pacific. Both studies are expected 
to be completed by June.''
    Are you familiar with that project?
    Mr. Rosenberg. I am, although not in the details.
    Mr. Abercrombie. That is OK. Do you think it will be done 
by June?
    Mr. Rosenberg. Yes, sir; I do. But I can check on that and 
report back.
    Mr. Abercrombie. Another point. This may seem like it is a 
generalized issue beyond this immediate hearing, but I think it 
is important for what WestPac does. By the way, I want to say 
for the record that I think WestPac has an extraordinary 
record, an excellent record, with respect to not only 
sensitivity and concern but taking action with respect to 
fisheries.
    There may be a lot of controversy over this particular 
issue, but I don't want to see that detract from the overall 
record that WestPac has. I think WestPac has accomplished that 
in the face of not having quite the same amount of funding as 
others.
    What is your control, your relationship to the priorities 
for Saltonstall-Kennedy projects?
    Mr. Rosenberg. Saltonstall-Kennedy projects are developed 
through an independent review panel that makes recommendations 
overall on projects on technical merit as well as on industry 
merit. There are two separate panels. There was a scientific 
panel as well as an industry-based panel to make 
recommendations to us on a priority listing order.
    Mr. Abercrombie. That being the case, maybe you have had 
more trouble in the Atlantic than you have had in the Pacific 
which may speak well of WestPac. But in the process, then, 
possibly because you haven't seen the necessity for more 
projects in WestPac, would you agree that WestPac wanted to 
have a Saltonstall-Kennedy project for blue-shark utilization 
in the Pacific that wasn't funded and that, for all intents and 
purposes, WestPac, on a continuing basis, gets a relatively low 
amount of funding or finds itself in low priority with respect 
to Saltonstall-Kennedy funding for this project or any other.
    Mr. Rosenberg. No, sir; I would not agree with that 
statement although it is quite true that that project was not 
funded. Again, it was rated by a technology panel and then by 
an industry panel and did not rate well compared to other 
projects as opposed to the priority of the issue. It is the 
technical merit of the projects and we tend not to change the 
priority ordering based on technical merit as well as industry-
based----
    Mr. Faleomavaega. Mr. Chairman, if I could ask unanimous 
consent if it is all right with the gentleman from Hawaii. We 
have some of the students here who are looking for seats, if it 
is all right if they can come and sit on the lower part of the 
dias.
    Mr. Saxton. Yes; we welcome you. There are, as Mr. 
Faleomavaega suggested, seats up here if there are not enough 
back there.
    Mr. Rosenberg. Mr. Chairman, for the record, I would be 
pleased to answer the questions from the students, too, since 
they have been sitting out there.
    Mr. Saxton. If we had the time, we would be happy to have 
it, I assure you.
    Mr. Abercrombie. You can understand, then, that it is a 
little disconcerting for Westpac to find itself in a position 
of having to make more definitive statements, scientifically or 
otherwise, but not necessarily having funding, then, for the 
studies that were supposed to give them the opportunity to make 
those statements.
    That said, then, and I accept your point, by the way, of 
overharvesting. I am quite familiar with the elephant situation 
in Africa and what was done to try and alleviate that, that if 
you have a high-priced byproduct, if you will, that there is a 
tendency, then, for unscrupulous people to want to take 
advantage of that and to heck with the consequences.
    But, as Mr. Aila has pointed out, and I think Mr. Cook has 
pointed out and I think all of you have taken the position, 
including in your testimony that other countries--we can go 
through with this bill, but other countries may, in fact, even 
do transshipment. Mr. Aila has raised that point as well, the 
transshipment.
    I am a little distressed that there is not a more positive 
statement from you with respect to what we might do in that 
regard. For example, you say, in your testimony, ``The 
Administration has already taken up this serious issue with a 
standing committee between NOAA and the International Trade 
Administration working to craft a solution.''
    Would that include sanctions because I will tell you, the 
reason I am asking that question to you, Mr. Rosenberg, and 
addressing the Chairman specifically on the bill, if we are 
going to do this, and this seems to be the trend, we are going 
to have the finning practice, I don't want the United States 
out there saying, ``Oh, well; we have taken a very principled 
and moral position,'' pat ourselves on the back and then march 
blindly off into the sunset.
    I don't see any reason why we should deal with countries 
who are going to do something that we find reprehensible, 
illegal or any combination that you want to put on it.
    Why couldn't we put sanctions into this bill? Why should we 
deal with countries? Why should we import any fish products of 
any kind of they are going to do this?
    Mr. Rosenberg. Congressman, I apologize if my statement was 
not clear. We agree that this is a serious issue that needs to 
be addressed. There have been a number of suggestions for how 
to address the issue including that made by Mr. O'Regan, and we 
have some other examples such as the shrimp-turtle situation 
where we require importation of that product from other 
countries to meet the same standards that we have imposed on 
our fishermen. A similar situation exist for tuna-dolphin and 
driftnetting.
    So we do have many examples. However, trade issues are very 
complicated and not my area of expertise. I am a fisheries 
scientist.
    Mr. Abercrombie. OK. Then I will put it on the record for 
you to take back that this has to be--I think we should have 
sanctions involved in this. I know people are reluctant to do 
it, but I am even more reluctant to get into a situation where 
we take the high ground and then leave everybody else to 
scramble around in the trenches and do as they wish.
    Mr. Saxton. May I just say to the gentleman, we would like 
to have one more round and if you could----
    Mr. Abercrombie. I will end with that.
    Mr. Saxton. Thank you very much.
    Mr. Abercrombie. I would like another round.
    Mr. Saxton. Let me just say that the last round, we will 
have to observe the 5-minute rule as we have got about twenty 
minutes left before the witching hour of 1 o'clock.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I want to 
second or complement also the concerns that have been expressed 
earlier with my good friend from the State of Hawaii, 
Congressman Abercrombie. That is exactly where I am coming 
from. If we are going to be serious about controlling shark 
finning not only operations within our own jurisdictional 
waters, what does this say about what other foreign countries 
are doing about this very same thing.
    I would like to ask Dr. Rosenberg, approximately what is 
the total dollar value of shark finning operations that we have 
worldwide? Is this a $3 billion industry or we are looking at--
I know it is about $100 for a little shark-fin soup in Tokyo. I 
know that for sure.
    It is probably the most expensive soup there is in any 
Chinese restaurant, if you ever go to Tokyo or even in Hawaii. 
I don't know how it is in Hawaii. Maybe Neil can----
    Mr. Abercrombie. I have never had it.
    Mr. Faleomavaega. You have never had shark-fin soup? It is 
delicious. I have to confess that. I'm sorry.
    Mr. Rosenberg. I can't give you a worldwide figure just 
because I can't multiply that fast. We are about 2 to 3 percent 
of the trade and roughly $3 million, but we don't have 
worldwide figures.
    Mr. Faleomavaega. As they say in Hawaii, that is just 
chicken scratch. I would like to request that some more 
comparable data be provided on this very question, total dollar 
value of the shark-finning industry that we have worldwide.
    Obviously, it is not just going to the U.S. restaurants but 
predominantly goes to Tokyo and other major Asian cities. Mr. 
Cook, State Senator Colleen Hanabusa, in her proposed bill to 
ban shark finning in the State of Hawaii, has some interesting 
findings and I wanted to ask if Westpac agrees with some of the 
allegations or findings that are stated in Senator Hanabusa's 
bill, one saying that 100,000 sharks are taken each year by 
Hawaii's base longliners, that data from log books and 
observers indicate that 86 percent of the shark are alive when 
brought to the boat and are killed just for their fins. 
Approximately 60 percent are then finned. That means, once 
caught, the fins are removed and the carcasses are discarded, 
that the fins are landed in Hawaii as unreported, untaxed 
catch.
    Another concern is an additional 150 metric tons of shark 
fins are taken elsewhere in the Pacific and are then 
transshipped unreported and untaxed through the state. Do you 
agree with the statements on this State bill, Mr. Cook?
    Mr. Cook. I think relative to the amounts of sharks that 
are taken, relative to the amounts of shark that are 
transshipped, I do agree. I totally disagree that this is 
unreported catch. I think that the National Marine Fisheries 
Service should be aware that the Hawaii log-book program, or 
the Hawaii longliners specifically documents the amount of 
sharks taken, the amount of sharks finned, the state of Hawaii 
catch reports that demand that fishermen fill out the amount of 
sharks that are finned and taken in the fishery and, further, 
there are transshipment requirements including a permit that 
very carefully document the amount of fins transshipped 
through.
    The issue of unreported income is totally false. We report 
everything.
    Mr. Faleomavaega. So you are saying that what Senator 
Hanabusa is claiming here is way out of context, no evidence or 
data to back those statistics?
    Mr. Cook. I have no problem with the numbers that Ms. 
Hanabusa uses. I simply have a problem with the thought that it 
is unreported. This is highly reported, highly regulated, 
activity.
    Mr. Faleomavaega. The notion that the shark has a very 
strong cultural value not only among my Hawaiian cousins but 
also among all the Polynesians. I wanted to ask if Westpac has 
seriously considered the concerns that were expressed earlier 
by Mr. Aila that sharks are not just for the purposes of 
eating, that there are a lot more serious cultural 
considerations not only among the native Hawaiians, but also 
other Polynesians.
    Has Westpac taken that into consideration?
    Mr. Cook. Indeed, we have. As you know, Westpac has a study 
that is progress on the cultural significance of sharks. Mr. 
Aila, and others, should be happy Westpac is proactive already 
at this time in asking that only one brown shark per trip be 
landed, and that only 50,000 blue sharks be taken.
    At a recent shark conference put on by Mr. Aila's 
organization in Waikiki, one of Hawaii's foremost authorities 
on Hawaiian culture stated that the blue shark, which makes up 
97 percent of our fisheries, is not aumakua to the Hawaiians.
    Mr. Faleomavaega. Mr. Chairman, I am sad to say that my 
time is up and I know at least I would like to give the 
courtesy to Mr. Aila to respond to Mr. Cook's comments on this 
issue and I sincerely hope that our subcommittee will focus 
more specifically on this very, very important issue as far as 
I am concerned.
    Mr. Chairman, is it all right if Mr. Aila can at least 
respond to Mr. Cook?
    Mr. Saxton. Yes; if you could do it briefly, sir, I would 
appreciate it.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Aila. Thank you, gentlemen. I will try to address that 
briefly. With regards to the reported income and the report of 
data of the sharks taken, the State of Hawaii catch report only 
added the shark fin total last year, so there is no data as far 
as the Hawaii State data.
    The National Marine Fisheries catch report is one that has 
not covered finning until very recently, either. So that is in 
response to that. There is a lot of unreported income and I beg 
to differ with Chairman Cook regarding the reported income to 
Hawaii.
    With reference to the study, the cultural study, I need to 
be polite but I also need to be very forceful in telling the 
truth that we Hawaiian fishermen shamed the Council and the 
National Marine Fisheries Service into conducting that report 
and that report is what we call in Hawaiian a manini report. It 
is a very small report, not very comprehensive. It was rushed 
through only because they failed to act on our request the 
first time.
    I would like to take this opportunity to address 
Representative Gilchrist's question earlier. As far as a big-
picture answer----
    Mr. Saxton. I am really going to have to ask you to--if you 
can do it in fifteen seconds because we are going to have a 
vote now at 1 o'clock, I understand.
    Mr. Gilchrist. If you will wait, Mr. Aila, I will ask you 
to respond to that big picture when I have my 5 minutes.
    Mr. Saxton. Let me recognize the gentleman from the Eastern 
Shore.
    Mr. Gilchrist. I yield to the gentleman from Hawaii.
    Mr. Aila. Mahalo. The big-picture answer to your question 
is we are all just trustees of this resource and we are 
managing it for the generations that have yet to be born. So 
that is the approach that needs to be taken with regards to not 
only shark finning but any marine resource management.
    Thank you.
    Mr. Saxton. Thank you, sir.
    Mr. Gilchrist. Mr. Aila, in your testimony which I will 
read in part, ``Westpac relied on NMFS analysis of Japanese 
logbook data. Although the Japanese fleet represents only 30 
percent of the total effort in the Pacific, it failed to 
recognize data from South Korean, Taiwanese, Chinese and 
Russian fleets. Basing scientific models on a foundation of 
only 30 percent of the total information is a recipe for 
failure.''
    Dr. Rosenberg, can you respond to that?
    Mr. Rosenberg. Yes; I can although, again, I didn't do the 
analysis so I can't talk about it in detail. We had available 
to us, because of our interaction with the FarSeas Fisheries 
Agency in Japan their data. We did not have available to us 
more comprehensive data from other countries.
    It depends on what conclusions you are trying to draw from 
that data as to whether you can appropriately do so or not. The 
fact that it is 30 percent of the fishery, again, depends on 
whether you are trying to evaluate what the total catch is and 
you know something about the relationship with the other fleets 
or not.
    So it is a rather more complicated question, sir.
    Mr. Gilchrist. Can I ask, Mr. Cook--I wasn't able to hold 
on to these figures throughout the testimony that was given--
the shark finning has increased by a fairly large amount over 
the last 10 years, twenty years?
    Mr. Cook. It has increased, in fact, by a large amount over 
the last 9 years.
    Mr. Gilchrist. What is the value of shark finning today 
economically, just a figure?
    Mr. Cook. Approximately $1.5 million.
    Mr. Gilchrist. What was it 10 years ago?
    Mr. Cook. Almost nothing.
    Mr. Gilchrist. What did people do 10 years ago if they 
didn't catch shark fins? What was their fishery like? What did 
they catch? What did they do?
    Mr. Cook. Probably most of the sharks that were brought to 
the boat were released.
    Mr. Gilchrist. But they were after something else. They 
made money some other way?
    Mr. Cook. That's correct. The catch in the longline 
fisheries were tuna and swordfish.
    Mr. Gilchrist. So shark finning is, and anybody can answer 
this, a recent phenomenon? Suppose I started a rumor that 
tomato soup cured arthritis and was an aphrodisiac. Would that 
replace shark finning?
    Mr. Abercrombie. That is not a rumor, you know.
    [Laughter.]
    Mr. Gilchrist. Oh; it's not a rumor? The gentleman from 
Hawaii says that is not a rumor.
    [Laughter.]
    Is this because of the demand?
    Mr. Cook. What I am saying is that you need to understand 
that what drives shark finning on a worldwide basis as well as 
in the Hawaii longline fishery is the dramatic increase in the 
price of shark finning. That is what has made it so attractive 
to people around the world.
    Mr. Gilchrist. So, in some areas of the world, eating 
shark-fin soup has been a tradition for thousands of years?
    Mr. Cook. That's correct.
    Mr. Gilchrist. But it is not a tradition in Hawaii or the 
other islands in the Pacific, Mr. Aila?
    Mr. Cook. It is a tradition in Hawaii. Very much so. We 
have a very large ethnic population here that consumes a large 
amount of shark fins, but nothing compared to the State of 
California which is the largest importer of shark fins.
    Mr. Gilchrist. Thank you, Mr. Cook.
    Mr. Aila, can you respond to that?
    Mr. Aila. There is a small population of Chinese and 
Japanese in Hawaii that utilize shark-fin soup. The majority of 
the population does not eat shark-fin soup. In fact, what is 
driving the increase in fins is as the East Asian market 
becomes more affluent, more people can afford it, and that is 
what is driving the market.
    Mr. Gilchrist. Thank you.
    Mr. Saxton. Thank you.
    Mr. Abercrombie?
    Mr. Abercrombie. Thank you very much. Mr. Chairman, just 
very quickly for those students who came in, they may be a 
little confused. The voice you hear of Mr. Cook is coming by 
satellite. Congress is not totally backward in how it operates, 
so we are dealing in real time. That box that is speaking there 
actually is not the box, it is a real person.
    Mr. Faleomavaega. Will the gentleman yield just for 5 
seconds?
    Mr. Abercrombie. Sure.
    Mr. Faleomavaega. I would just like to recognize the 
presence of our closeup students who come all the way from 
American Samoa. We are very honored to to have them here and I 
hope they are getting an education to see what the legislative 
process is really about here in the Congress.
    Thank you, Mr. Chairman and the gentleman from Hawaii.
    Mr. Saxton. You came at just the right time. I hope you 
folks brought some kava for us. After this hearing, we are 
going to need it.
    Mr. Abercrombie. Never mind that. We are looking for tomato 
soup, now.
    [Laughter.]
    Mr. Faleomavaega. If the gentleman will yield, I am going 
to request that the students will provide the Chairman and the 
members an a capella song that they have learned, if that is 
all right, after the hearing.
    Mr. Abercrombie. Yes; and I will make this even quicker. 
Mr. Cook, I appreciate your testimony. Particularly, I want to 
focus a little bit on your conclusions very quickly, if I can.
    You point out in your conclusions that the question of 
waste is put forward with regard to the blue-shark situation 
right now, but the question of waste is far broader than that. 
Do you have some recommendations--you don't need to go into 
them in detail, but could we ask for recommendations from you 
with respect to the other kinds of target catches and waste 
problem. Do you see that as something that needs to be 
addressed by us as well?
    Mr. Cook. Yes; I do. I think you know that the last time 
that we were in session with this group, you asked Andy 
Rosenberg from National Marine Fisheries Service for a 
definition of waste. There is very, very significant waste in 
other fisheries in the country.
    In Alaska, there is tremendous waste in the chum salmon 
fishery. There is waste in many roe fisheries throughout the 
country. To single out the Hawaiian longline fishery, the waste 
that occurs with shark finning, is only one bit of waste in 
very, very many fisheries with similar problems.
    Mr. Abercrombie. Thank you. You heard my questions about 
the underfunding. I would like you to submit, if you can, to 
the Chairman those areas where you think that Westpac could 
usefully benefit and, by extension, the information to be 
gained to benefit not only the fisheries there but our task 
here. If you would forward to us those things that you feel 
have been underfunded, I think it would be useful to us. Could 
you do that?
    Mr. Cook. Yes; I can.
    Mr. Abercrombie. The last point, then. There has been some 
argument about whether the sharks are landed, and I think this 
has a great deal to do with the finning because I think some of 
the people who are not involved in it, actually--that is to 
say, doing the fishing--they find it offensive that a fish 
would be brought on board and then the fin hacked off and then 
the remaining part put back in the sea.
    You say, in your testimony, that most of the sharks--in 
fact, 98 percent of the sharks--that are finned are done to 
those who are dead when they get on board. Yet, there was 
testimony, I believe, that had the opposite conclusion.
    Can you tell me definitively what is the ratio here? Are 
the sharks alive when they brought on board or are they dead 
when they are brought on board and finned because, if they are 
dead and finned, that is an entirely different proposition from 
simply harvesting them, hacking off the fins and throwing them 
back in the water.
    Mr. Cook. The sharks are handled in exactly the same manner 
as the rest of the catch is handled. The animal is brought on 
board and is killed very quickly and efficiently, normally by 
severing its spinal cord. After the animal is dead, the shark 
fins are removed. Anybody who has ever dealt with a shark, it 
is perfectly logical that they are killed before the fins are 
removed.
    Mr. Abercrombie. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Saxton. Thank you, Mr. Abercrombie. Right on time. I 
thank the witnesses for their insight and the members for their 
questions. The members of the subcommittee may have some 
additional questions for the witnesses and we will ask you to 
respond in writing. The hearing record will remain open for 
thirty days for those responses.
    If there is no other business, the Chairman again thanks 
the members of the subcommittee and our witnesses. The 
subcommittee stands adjourned.
    [Whereupon, at 12:55 p.m., the subcommittee was adjourned.]

</pre></body></html>
